M-121773 (07/20)
VISA GOLD CARDHOLDER AGREEMENT AND DISCLOSURE STATEMENT
TINKER FEDERAL CREDIT UNION – VISA GOLD
Interest Rates and Interest Charges
ANNUAL PERCENTAGE
3.99% introductory rate on purchases for 6 months from date of account opening; thereafter, the
RATE (APR) for
APR is set by your credit rating at the time of account opening.*
Purchases
Rate 1 –
Rate 5 –
APR for Balance
Transfers

APR for Cash Advances

8.50% Rate 2 – 9.50%
14.50%

Rate 3 –

10.50%

Rate 4 –

12.50%

The APR will vary with the market based on the Prime Rate.
Rate 1 – 8.50% Rate 2 – 9.50% Rate 3 – 10.50% Rate 4 – 12.50% Rate 5 – 14.50%
Balance transfer APR: The current program APR which will be set by your credit rating at the time of
account opening.* The APR will vary with the market based on the Prime Rate.
Rate 1 – 8.50% Rate 2 – 9.50% Rate 3 – 10.50% Rate 4 – 12.50% Rate 5 – 14.50%
Cash advance APR: The current program APR which will be set by your credit rating at the time of
account opening.* The APR will vary with the market based on the Prime Rate.

Paying Interest

For Credit Card Tips from
the Consumer Financial
Protection Bureau
Fees
Set-Up and Maintenance
Fees
● Annual Fee
Transaction Fees
● Balance Transfer Fee
● Cash Advance Fee
● Foreign Transaction
Penalty Fees
● Late Payment

● Return Check Fee

Other Fees
● Statement Copy
● Ticket Copy

Your due date is at least 25 days after the close of each billing cycle. We will not charge you any
interest on purchases if you pay your entire balance by the due date each month. We will begin
charging interest on cash advances and balance transfers on the transaction date.
To learn more about factors to consider when applying for or using a credit card, visit the website of
the Consumer Financial Protection Bureau at http://www.consumerfinance.gov/learnmore

None
None
None
1% of each transaction in U.S. dollars.
Up to $22 - If your minimum monthly payment is not received by us on the due date on your monthly
statement, we may impose a late fee of up to $22 which will be reflected on the following monthly
statement.
Up to $20 - The Credit Union may charge a return check fee for each return by a bank or other
depository institution of a dishonored check, negotiable order of withdrawal or share draft issued by
cardholder(s) as payment on the credit card account.
$2 - the Credit Union may charge a $2.00 fee for each duplicate copy of requested monthly billing
statement(s).
The Credit Union may charge for each duplicate copy of requested sales slip(s). However, if the
request for a duplicate copy of a sales slip is in connection with any disputed billing matter, (see
“YOUR BILLING RIGHTS”), a fee will not be imposed.
$25 - Travel and Entertainment documents
$6 - Original sales slip on valid charges
$5 - Photocopy of sales slip on valid charges

● Card Replacement Fee

$13 - the Credit Union may charge for each credit card that is reissued prior to the current cards
expiration date.
How We Will Calculate Your Balance: We use a method called “Average Daily Balance (including new purchases).” See the
INTEREST CHARGE CALCULATION METHODS section of this cardholder agreement for more details.
Billing Rights: Information on your rights to dispute transactions and how to exercise those rights is included in this cardholder
agreement under the YOUR BILLING RIGHTS section.
*The credit score ranges are as follows: Rate 1 (740 and above) Rate 2 (700-739) Rate 3 (660-699) Rate 4 (625-659) Rate 5 (0 to 624)
Your account must be open to receive a Year-End Purchase Summary and to use other program benefits.

1

DEFINITIONS
Except as the context otherwise requires (a) “Account(s)”
means my Visa Gold credit card account established with
Tinker Federal Credit Union and governed by this Agreement;
(b) “Issuer” and/or “Credit Union” means Tinker Federal Credit
Union of P.O. Box 45750, Tinker Air Force Base, Oklahoma
73145; (c) “I,” “Me,” “We,” “My,” “Our,” “Mine,” “Us,”
“You,” “Your,” and “Cardholder(s)” mean all persons who
have signed the application for the Visa Gold and/or used or
permitted others to use the card; (d) the “Card” or “Cards”
means the Visa Gold card(s); (e) “Agreement” means this
document; (f) “Cash Advance” means all cash advances
obtained at any time through the use of the card from any
financial institution authorized to honor the cards; (g) “Credit
Limit” means the dollar amount Credit Union approved against
which I may borrow in accordance with this Agreement; (h)
“Application” means the credit application I/We filled out and
signed which is incorporated herein and made a part of this
Agreement; (I) “Prime Rate” means the rate published daily in
The Wall Street Journal under the caption “Money Rates”
and described as the base rate on corporate loans at large United
States money center commercial banks. If the “Prime Rate” so
published is a range, the “Prime Rate” will mean the highest of
the published range.
AGREEMENT TO EXTEND CREDIT
Credit Union agrees to extend credit to cardholder and advance
amounts, up to the cardholder’s credit limit, to pay for: (i) all
purchases of goods and services of whatever type and nature
made at any time through the use of the card at businesses
authorized to honor a card, and (ii) all cash advances obtained
at any time through the use of the card from any financial
institution or ATM authorized to honor a card.
PROMISE TO PAY AND PERSONS LIABLE
By signing the application, retaining, and/or using the card(s)
or allowing an authorized party to use the card(s), I/We promise
to pay to Credit Union, or anyone Credit Union designates, all
amounts loaned under the Agreement plus the applicable
interest charges, attorney’s fees, court cases or other amounts
that I/We owe Credit Union. If more than one person applies
for the card(s), each person will be issued a Card and will be a
cardholder under this Agreement. The cardholder whose name
appears first on the application will be considered the “Primary
Cardholder.” The cardholder will be responsible for all
purchases, cash advances, and all interest charges imposed
under this Agreement. If there is more than one cardholder for
the account, each cardholder will be liable for all amount
payable on the account regardless of which cardholder is
responsible for incurring such amounts. Each cardholder will
also be responsible for complying with all of the other terms of
this Agreement.
CREDIT LIMIT
The Credit Union has established an initial credit limit for the
cardholder’s account(s) and reserves the right at any time, at
cardholder’s request or otherwise, to change the amount of
credit available through cardholder’s Visa Gold account(s).
Cardholder agrees not to incur charges or to permit others to
incur charges, that would result in credit in excess of
cardholder’s authorized amount. The Credit Union does not
allow over-the-limit charges as a term of this product. If the
credit limit should be exceeded, for any reason, even

inadvertently, cardholder agrees to pay the amount over limit
immediately upon notice from Credit Union. Examples of
inadvertent excess of credit limit include, but are not limited to,
returned payments and merchant authorizations.
INTEREST CHARGE CALCULATION METHODS
The interest charge calculation method applicable to your
account for cash advances and credit purchases of goods and
services that you obtain through the use of your card is
explained below. Calculation Method A is used to determine
the interest charge on cash advances. Calculation Method G is
used to determine the interest charge on purchases of goods or
services.
Method A—The interest charge on cash advances begins to
accrue on the date you obtain the cash advance or the first day
of the billing cycle in which it is posted to your account,
whichever is later. The interest charges for a billing cycle are
computed by applying the daily periodic rate to the average
daily balance multiplied by the number of days in the billing
cycle OR the monthly periodic rate to the average daily balance
during the billing cycle, which is determined by dividing the
sum of the daily balances during the billing cycle by the number
of days in the cycle. Each daily balance is determined by
adding to the previous balance (the outstanding balance of your
account at the beginning of the billing cycle) any new credit
purchases posted to your account and any new cash advances
received, and subtracting any payments as received or credits
as posted to your account, but excluding any unpaid interest
charges.
Method G—The interest charge on credit purchases begins to
accrue on the date each purchase is posted to your account. To
avoid incurring an interest charge on the balance of credit
purchases reflected on your monthly statement and on any new
credit purchases appearing on your next statement, you must
pay the new balance shown on your monthly statement on or
before the payment due date. The interest charges for a billing
cycle are computed by applying the daily periodic rate to the
average daily balance multiplied by the number of days in the
billing cycle OR the monthly periodic rate to the average daily
balance of credit purchases, which is determined by dividing
the sum of the daily balances during the billing cycle by the
number of days in the cycle. Each daily balance is determined
by adding to the previous balance of credit purchases, any new
credit purchases posted to your account and subtracting any
payments as received and credits as posted to your account, but
excluding any unpaid interest charges.
VARIABLE RATE DISCLOSURE
The Annual Percentage Rate is initially determined by your
credit rating. I understand that the monthly periodic rates and
the Annual Percentage Rates are variable rates that may
change from time to time. The current rates are disclosed on
the insert the Credit Union has furnished to me based on my
credit score at the time of account opening. My Annual
Percentage Rate (APR) may change (increase or decrease)
from time to time based on movements in the Prime Rate,
published in The Wall Street Journal on the 25th calendar day
prior to the beginning of each calendar quarter. If this date falls
on a weekend or holiday, the published rate on the next business
day will be utilized. My new rate will not become effective
until after the end of my current billing cycle in which

2

movement of the Prime Rate dictates a change to the annual
percentage rate currently in effect.
Rate 1 – If I receive Rate 1, the APR will be determined by
adding 5.25% to the Prime Rate.
Rate 2 – If I receive Rate 2, the APR will be determined by
adding 6.25% to the Prime Rate.
Rate 3 – If I receive Rate 3, the APR will be determined by
adding 7.25% to the Prime Rate.
Rate 4 – If I receive Rate 4, the APR will be determined by
adding 9.25% to the Prime Rate.
Rate 5 – If I receive Rate 5, the APR will be determined by
adding 11.25% to the Prime Rate.
The periodic rate will be adjusted after the end of my current
billing cycle in each calendar quarter in which movement of the
Prime Rate dictates a change. Calendar quarters begin January
1, April 1, July 1, and October 1 of each year. I understand that
my monthly periodic rate will be 1/12th of the applicable APR.
If there is an increase in the Prime Rate, my minimum monthly
payment may also increase. Likewise, if the Prime Rate
decreases, my minimum monthly payment may also decrease.
However, in no event will the Annual Percentage Rate
exceed 18.0%, (which corresponds to a monthly periodic rate
of 1.5%).
MONTHLY PAYMENTS
Cardholders agree to pay monthly on or before the “Payment
Due Date” either (i) the total “New Balance” which includes
any of the previous unpaid balances, purchases, cash advances,
payments and credits, or (ii) at least the “Minimum Payment”
required, which is the greater of $15.00 or 3% of the
outstanding “New Balance” as shown on the monthly
statement. Payment “Due Date” on statement is 25 days from
statement’s “Closing Date.” The amounts paid as part of the
Minimum Payment and all amounts paid over the Minimum
Payment are applied to balances as permitted by law. We do
not charge interest on interest.
All payments shall be considered made when received on any
business day (excluding federal holidays), when received at
Tinker Federal Credit Union’s billing address: P.O. Box 45750,
Tinker AFB, OK 73145, and when accompanied by the return
portion of the cardholder statement
CREDIT CARD LOSS OR FRAUDULENT TRANSFERS
Under the Fair Credit Billing Act, your liability for
unauthorized use of your card is capped at $50. However, if
you report the loss of your card before your credit card is used,
you are not responsible for any charges you did not authorize.
Likewise, if you exercise reasonable care in safeguarding your
card from loss or theft and promptly report any loss or theft of
your card to TFCU you have ZERO liability. TFCU must be
notified of loss, theft, or possible unauthorized use of the credit
card by notification in person, by calling (405) 732-0324,
option 6, or 1-800-456-4828, option 6, or by writing to TFCU
at P.O. Box 45750, Tinker AFB, Oklahoma 73145, Attn: Credit
Card Department. If your credit card number is stolen, but not
the card, you are not liable for any unauthorized use. If you
dispute any transaction, while we investigate, you must timely
pay other amounts owing, including finance charges on the
disputed amount.
ATTORNEY’S FEES

Cardholder agrees to pay all reasonable costs of collection
including reasonable attorney’s fees not in excess of fifteen
percent (15%) of the unpaid debt, court costs, and other lawful
charges incurred by the Credit Union in collecting the
Cardholder’s indebtedness, whether or not suit is brought.
DISCLAIMER OF LIABILITY
The Credit Union shall not be responsible if a merchant or
financial institution shall refuse to honor any card. Refusal to
honor shall not affect or impair the obligation of cardholder to
pay all sums due on an account in accordance with the terms
hereof. Notices hereunder shall be effective only if given in
writing to Credit Union at its office and to cardholder at my last
known mailing address, as shown on Credit Union’s records.
OWNERSHIP OF CREDIT CARDS
Card(s) shall at all times remain the property of the Credit
Union; the cardholder agrees to surrender them upon demand.
The Credit Union may revoke the credit cards and cancel my
line of credit if issuer reasonably believes prospects of
repayment are impaired, then the unpaid balance becomes
immediately due and payable at once and my line of credit is
cancelled. If Credit Union revokes the credit cards and cancels
the credit line, this does not affect cardholder’s obligations to
repay the Credit Union. Cardholder may cancel account by
written notice and return of the cut cards to the Credit Union’s
Credit Card Department.
AMENDMENT
I agree that the terms of the Agreement are applicable to any
cardholder. I also agree that the Credit Union may change the
terms of the Agreement at any time with written notice required
by law before the change becomes effective. Any changes to
the Agreement may apply to all outstanding indebtedness
incurred before, on, or after the effective date of the changes.
Cardholder’s failure to terminate the account prior to the
effective date of an Amendment shall constitute acceptance of
such Amendment. To terminate the account, all credit cards
must be returned to Tinker Federal Credit Union Credit Card
Department and the cardholder will be required to pay the
account in accordance with the terms of the Cardholder
Agreement and Disclosure Statement.
CHOICE OF LAW
I acknowledge and understand that the obligations under this
Agreement represented by charges to my account(s) were
contracted for and became binding when the sales drafts, card
slips or other credit devices were accepted by the Credit Union
and caused the holder of the same to be paid, and this occurred
in Oklahoma County, and the courts of Oklahoma County shall
have venue to try controversies arising out of this agreement. If
any portion of the Agreement is determined to be
unenforceable, it will not make any other part unenforceable.

IRREGULAR PAYMENT: DELAY IN ENFORCEMENT
The Credit Union can accept late payments, partial payments,
checks and money orders marked “Paid in Full” or language
having the same effect without losing any of the cardholder’s
rights under this Agreement. The Credit Union can also delay
enforcing our rights under this Agreement any number of times
without losing them. The fact that the Credit Union may honor

3

a purchase or cash advance in excess of the credit limit does not
obligate the Credit Union to do so thereafter.

EVENTS OF DEFAULT
I will be in default under this Plan and Agreement if any of the
following events shall occur:
(a) If I fail to comply with the minimum payment or any other
terms or conditions of this Agreement I may have with you;
(b) If I should die or become insolvent;
(c) If a petition should be filed or other proceeding should be
started under the Federal Bankruptcy Code or any State
insolvency Statute by or against me;
(d) If a receiver should be appointed or a writ or order of
attachment, levy or garnishment should be issued against
me or any of my property, assets or income;
(e) If Credit Union should consider itself or any debts due
under this Agreement unsafe or not completely secure or if
Credit Union should believe, in good faith, that the chances
of my paying or performing all of my obligations under this
Agreement have been impaired; or
(f) If anything in the application or use of this card is
misrepresented or used for any fraudulent purchase.
ENTIRE BALANCE DUE
If any of the above events of default should occur, my entire
outstanding balance shall immediately become due and
payable, without Credit Union notifying me, with interest due
on the balance at the applicable APR as provided herein per
year until paid, and Credit Union’s obligations to honor my use
of the card to get credit extensions from anyone or to make
further advances to me shall, at Credit Union’s option, and
without notice, immediately end. If I fail to pay the outstanding
balance immediately, on Credit Union’s demand, I agree to pay
all of Credit Union’s collection expenses, including Credit
Union’s reasonable attorney’s fees.
ILLEGAL TRANSACTIONS
A credit card may not be used for an illegal transaction. Certain
transactions are prohibited from being processed through your
account with the Credit Union under the Unlawful Internet
Gambling Enforcement Act of 2006 (“the Act”) and related
regulations issued by the Board of Governors of the Federal
Reserve System and the United States Department of the
Treasury (“Regulation GG”). The Credit Union is required by
the Act and Regulation GG to inform you of this restriction.
The transactions which are prohibited are the following
transactions or transmittals involving any credit, funds,
instrument, or proceeds that the Act prohibits any person
engaged in the business of betting or wagering (except for the
activities of a financial transaction provider, or any interactive
computer service or telecommunications service) from
knowingly accepting, in connection with the participation of
another person in unlawful Internet gambling:
■ Credit, or the proceeds of credit, extended to or on behalf of
such person (including credit extended through the use of a
credit card);
■ An electronic fund transfer, or funds transmitted by or
through a money transmitting business, or the proceeds of an
electronic fund transfer or money transmitting service, from or
on behalf of such other person; and

■ Any check, draft, or similar instrument that is drawn by or on
behalf of such other person and is drawn on or payable at or
through any financial institution.
Internet gambling will generally be deemed to be unlawful
unless it is expressly authorized by license issued by an
appropriate State or Tribal authority.
CREDIT INVESTIGATION
Since Credit Union has the sole right to approve my application
and allow me to use the card(s) now and in the future, I
authorize Credit Union at any time to make or have made
whatever credit investigation Credit Union feels is proper to
evaluate my credit, personal or financial standing and /or
employment, and I authorize Credit Union to share my credit
experience with credit bureaus. I also agree to furnish Credit
Union current financial statements in such details as Credit
Union may require on an annual basis and more frequently at
Credit Union’s request.

For the purpose of the following sections only, “You”/”Your”
means all persons who have signed the application for Visa
Gold and used or permitted others to use the card; and
“Us”/”We” means Tinker Federal Credit Union of PO Box
45750, Tinker Air Force Base, Oklahoma 73145.

YOUR PERSONAL IDENTIFICATION NUMBER
Within the next few days, you will be receiving a Personal
Identification Number (PIN). This personal identification
number is being assigned to your account to allow you access
to ever-expanding networks of automated teller machines
(ATMs) in this area, across the country, and overseas. Because
each ATM is slightly different, simply insert your card in the
slot and follow the directions that will appear on the screen.
Some important directions will come with the identification
number, and we ask that you follow those instructions carefully
to protect your card from unauthorized use.
AUTOMATIC UPDATE SERVICE
As part of the services provided by VISA, VISA now requires
card issuers to participate in the VISA Automatic Updater
(“VAU”) services. VISA will monitor changes to your account
information and automatically update your account
information, if changes to your account are detected by VISA.
The auto-updated information may include a change in your
name, card account number, and other important and relevant
information impacting your card account and potential activity;
this will allow you to continue to use your card without
interruption. If you do not want your information to be
automatically updated by VISA, then please contact us to
discuss options.

YOUR BILLING RIGHTS: KEEP THIS DOCUMENT
FOR FUTURE USE
This notice tells you about your rights and our
responsibilities under the Fair Credit Billing Act.
WHAT TO DO IF YOU FIND A MISTAKE ON YOUR
STATEMENT

4

If you think there is an error on your statement, write to us at
Tinker Federal Credit Union, P.O. Box 45750, Tinker AFB,
Oklahoma 73145, Attn: Credit Card Department.
In your letter give us the following information:
 Account information: Your name and account number.
 Dollar amount: The dollar amount of the suspected
error.
 Description of problem: If you think there is an error on
your bill, describe what you believe is wrong and why
you believe it is a mistake.
You must contact us:
 Within 60 days after the error appeared on your
statement.
 At least 3 business days before an automated payment
is scheduled, if you want to stop payment on the amount
you think is wrong.
You must notify us of any potential errors in writing. You may
call us, but if you do we are not required to investigate any
potential errors and you may have to pay the amount in
question.
WHAT WILL HAPPEN AFTER WE RECEIVE YOUR
LETTER
When we receive your letter, we must do two things:
1. Within 30 days of receiving your letter, we must tell
you that we received your letter. We will also tell you
if we have already corrected the error.
2. Within 90 days of receiving your letter, we must either
correct the error or explain to you why we believe the
bill is correct.
While we investigate whether or not there has been an
error:
 We cannot try to collect the amount in question, or
report you as delinquent on that amount.
 The charge in question may remain on your statement,
and we may continue to charge you interest on that
amount.
 While you do not have to pay the amount in question,
you are responsible for the remainder of your balance.
 We can apply any unpaid amount against your credit
limit.
After we finish our investigation, one of two things will
happen:
 If we made a mistake: You will not have to pay the
amount in question or any interest or other fees related
to that amount.
 If we do not believe there was a mistake: You will have
to pay the amount in question, along with applicable

interest and fees. We will send you a statement of the
amount you owe and the date payment is due. We may
then report you as delinquent if you do not pay the
amount we think you owe.
If you receive our explanation but still believe your bill is
wrong, you must write to us within 10 days telling us that you
still refuse to pay. If you do so, we cannot report you as
delinquent without also reporting that you are questioning your
bill. We must tell you the name of anyone to whom we reported
you as delinquent, and we must let those organizations know
when the matter has been settled between us.
If we do not follow all of the rules above, you do not have to
pay the first $50 of the amount you question even if your bill is
correct.
YOUR RIGHTS IF YOU ARE DISSATISFIED WITH
YOUR CREDIT CARD PURCHASES
If you are dissatisfied with the goods or services that you have
purchased with your credit card, and you have tried in good
faith to correct the problem with the merchant, you may have
the right not to pay the remaining amount due on the purchase.
To use this right, all of the following must be true:
1. The purchase must have been made in your home state
or within 100 miles of your current mailing address,
and the purchase price must have been more than $50.
(Note: Neither of these are necessary if your purchase
was based on an advertisement we mailed to you, or if
we own the company that sold you the goods or
services.)
2. You must have used your credit card for the purchase.
Purchases made with cash advances from an ATM or
with a check that accesses your credit card account do
not qualify.
3. You must not yet have fully paid for the purchase.
If all of the criteria above are met and you are still dissatisfied
with the purchase, contact us in writing at:
Tinker Federal Credit Union
P.O. Box 45750
Tinker AFB, OK 73145
Attn: Credit Card Department
While we investigate, the same rules apply to the disputed
amount as discussed above. After we finish our investigation,
we will tell you our decision. At that point, if we think you owe
any amount and you do not pay, we may report you as
delinquent.

5

